      _..t'S'ill.V1CIS.
    .:,~                  "-t,                                                                               Office of Inspector General
{          ~                        DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Audit Services



\~E ~""*"''''10                                                                                              Region VII
                                                                                                             601 East 12th Street
                                                                                                             Room 0429
                            JUL 13
                                1 1 2009                                                                     Kansas City, Missouri 64106



                                 Report Number: A-07-09-00318

                             Mr. Carlos Gonzalez, CPA
                             Executive Vice-President ofInfrastructure and Chief Financial Officer
                             Cooperativa de Seguros de Vida de Puerto Rico
                             400 Americo Miranda Avenue
                             Rio Piedras, Puerto Rico 00927

                             Dear Mr. Gonzalez:

                             Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                             General (OIG), final report entitled "Audit of Cooperativa de Seguros de Vida de Puerto Rico's
                             Unfunded Pension Costs for 1986 to 2007." We will forward a copy of this report to the HHS
                             action official noted on the following page for review and any action deemed necessary.

                             The HHS action official will make final determination as to actions taken on all matters reported.
                             We request that you respond to this official within 30 days from the date of this letter. Your
                             response should present any comments or additional information that you believe may have a
                             bearing on the final determination.

                             Pursuant to the Freedom ofInformation Act, 5 U.S.c. § 552, OIG reports generally are made
                             available to the public to the extent that information in the report is not subject to exemptions in
                             the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                             If you have any questions or comments about this report, please do not hesitate to call me at
                             (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                             through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00318
                             in all correspondence.

                                                                            Sincerely,



                                                                           Patrick 1. Cogley
                                                                           Regional Inspector General
                                                                            for Audit Services


                             Enclosure
Page 2 – Mr. Carlos González, CPA


Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  AUDIT OF COOPERATIVA DE 

 SEGUROS DE VIDA DE PUERTO 

  RICO’S UNFUNDED PENSION 

   COSTS FOR 1986 TO 2007





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-07-09-00318

                    Office
                    Office of Inspector
                                 nspector General
                           of http://oig.hhs.gov eneral
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND


Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970.

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The contracts specify segmentation requirements and require the separate
identification of unfunded costs for the Medicare segment and the business units comprising the
rest of the company, which are aggregated and identified as the “Other” segment.

OBJECTIVES

The objectives of our review were to:

   •	 determine whether pension costs for plan years 1986 through 2006 were funded in
      accordance with the Federal Acquisition Regulation (FAR) and Cost Accounting
      Standards (CAS), and

   •	 identify and properly account for any unallowable unfunded pension costs.

SUMMARY OF FINDINGS

COSVI did not properly fund the pension costs allocable to the Medicare contracts in accordance
with the FAR and the CAS for plan years 1986, 1987, and 1988. In addition, COSVI did not
identify or properly account for unallowable unfunded pension costs. As a result of these errors,
COSVI understated the January 1, 2007, accumulated unallowable unfunded pension costs by
$800,063 ($76,088 for the Medicare segment plus $723,975 for the “Other” segment).

RECOMMENDATIONS

We recommend that COSVI:

   •	 identify $800,063 of accumulated unallowable unfunded pension costs ($76,088 as an
      unallowable component of the Medicare segment pension costs and $723,975 as an
      unallowable component of the “Other” segment pension costs) as of January 1, 2007; and

   •	 properly identify, and update with interest, unallowable unfunded pension costs in
      subsequent years.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendations.

COSVI’s comments are included in their entirety as the Appendix.




                                              ii
                                                INTRODUCTION 


BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico and Medicare

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970. 1 In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulations (FAR), Cost Accounting Standards
(CAS), and Medicare contracts.

Since its inception, Medicare has paid a portion of the annual contributions made by contractors
to their pension plans. The payments are allowable pension costs under the FAR and its
predecessor, the Federal Procurement Regulations (FPR). In 1980, the Medicare contracts and
the FPR incorporated CAS 412 and 413.

Cost Accounting Standards

The CAS works to ensure stability between contract periods and requires that pension costs be
consistently measured and assigned to contract periods and allocated to cost objectives, including
Federal contracts. On March 30, 1995, the Office of Federal Procurement Policy, Cost
Accounting Standards Board, revised the CAS relating to accounting for pension costs applicable
with the start of the first accounting period thereafter.

The revised CAS removed the regulatory conflict between the funding limits of the Employee
Retirement Income Security Act of 1974 (ERISA) and the period assignment provisions of CAS.
The transition provisions of the new rule (48 CFR § 9904.412-64) allow the reassignment of
prior period pension costs, with interest, which were not funded because they lacked tax
deductibility.

The CAS revision does not remove the requirement to fund pension costs with contributions that
are not in conflict with ERISA. If a contractor could have funded pension costs and chose not to,
the costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, per the FAR and CAS.

Federal Acquisition Regulation

The FAR addresses the allowability of pension costs and requires that pension costs assigned to
contract periods be substantiated by funding. FAR (48 CFR § 31.205-6(j)(2)(i) and (iii)), 2 states:
“. . . pension costs . . . assigned to the current accounting period, but not funded during it, are not


1
    On February 28, 2009, the contractual relationship was terminated.
2
 During the period covered by our review, FAR 31.205-6 was amended with sections being renumbered and
reworded. Refer to FAR 31.205-6(j)(3)(i) and (iii) for relevant prior FAR citations.


                                                            1

allowable in subsequent years. . . . Increased pension costs are unallowable if the increase is
caused by a delay in funding beyond 30 days after each quarter of the year to which they are
assignable.”

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our review were to:

   •	 determine whether pension costs for plan years 1986 through 2006 were funded in
      accordance with the FAR and CAS, and

   •	 identify and properly account for any unallowable unfunded pension costs.

Scope

Our review covered plan years 1986 through 2006. Achieving our objectives did not require that
we review COSVI’s internal control structure. However, we reviewed internal controls relating
to the funding of pension costs to ensure that the pension costs had been funded in accordance
with the FAR and CAS.

We performed fieldwork at COSVI’s office in Rio Piedras, Puerto Rico, during March and April
2008.

Methodology

The CMS Office of the Actuary developed the methodology used for computing CAS pension
costs based on COSVI’s historical practices.

In performing this review, we used information provided by COSVI’s actuarial consulting firms,
which included assets, liabilities, normal costs, contributions, benefit payments, investment
earnings, and administrative expenses. We reviewed COSVI’s accounting records, the pension
plan documents, annual actuarial valuation reports, and the Department of Labor/Internal
Revenue Service Form 5500s. Using these documents, the CMS Office of the Actuary
calculated the assignable CAS pension costs for each year of the period 1986 through 2006. The
assignable CAS pension costs for the period 1986 through 1995 were calculated on a Total
Company basis. The assignable CAS pension costs for the period 1996 through 2006 were
calculated for both the Medicare segment and the business units comprising the rest of the
company, which are aggregated and identified as the “Other” segment.

Additionally, the CMS Office of the Actuary determined the extent to which COSVI funded
those costs with contributions to the pension trust fund. We reviewed the methodology for the
calculations and update of COSVI’s Total Company unfunded pension costs for the years 1986
through 1995, as well as the Medicare segment and the “Other” segment unfunded pension costs




                                                 2

for the years 1996 through 2006. This review included the allocation of the January 1, 1996,
accumulated unfunded pension cost to the Medicare and “Other” segments, an allocation that
was based on each segment’s actuarial liability. 3

We performed this review in conjunction with our audits of Medicare segmentation
(A-07-08-00271) and pension costs claimed for Medicare reimbursement (A-07-08-00272;
A-07-09-00317). We used the information obtained during those audits in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

COSVI did not properly fund the pension costs allocable to the Medicare contracts in accordance
with the FAR and the CAS for plan years 1986, 1987, and 1988. In addition, COSVI did not
identify or properly account for unallowable unfunded pension costs. As a result of these errors,
COSVI understated the January 1, 2007, accumulated unallowable unfunded pension costs by
$800,063 ($76,088 for the Medicare segment plus $723,975 for the “Other” segment).

For Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR. The
Medicare contracts state: “The calculation of and accounting for pension costs charged to this
agreement/contract are governed by the Federal Acquisition Regulation and Cost Accounting
Standards 412 and 413.”

The revised CAS states that if a contractor could have funded pension costs and chose not to, the
costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, per the FAR and CAS.

For plan years 1986, 1987, and 1998, we identified $148,331, $11,632, and $29,109,
respectively, of pension costs 4 that COSVI could have funded with contributions as provided for
by ERISA. However, COSVI did not fund these costs in this manner. As of January 1, 2007,
COSVI had accumulated $800,063 in unallowable pension costs ($76,088 for the Medicare
segment plus $723,975 for the “Other” segment). The pension costs are unallowable because
they were not funded within specific time periods set by FAR regulations. Imputed interest on
the unfunded costs is also unallowable per CAS regulations. The $800,063 represents unfunded
pension costs and imputed interest for the years 1986 through 2006.


3
 The actuarial liability was based on the entry age normal cost method exclusive of pre-1982 employee contribution
account balances.
4
    Total Company unfunded pension costs as of the end of each year.



                                                          3

RECOMMENDATIONS

We recommend that COSVI:

   •	 identify $800,063 of accumulated unallowable unfunded pension costs ($76,088 as an
      unallowable component of the Medicare segment pension costs and $723,975 as an
      unallowable component of the “Other” segment pension costs) as of January 1, 2007; and

   •	 properly identify, and update with interest, unallowable unfunded pension costs in
      subsequent years.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendations.

COSVI’s comments are included in their entirety as the Appendix.




                                              4

APPENDIX 

APPENDIX
